Supreme Court, U.S.
FILED

MAY 2 0 2021'

CASE NO.

21-5191
IN THE
SUPREME COURT OF THE UNITED STATES

Tammy H. Hepburn, Petitioner
v.
Teleperformance, Respondent

On Petition For A Writ Of Certiorari
To The United States Court OfAppeals
For The Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Tammy H. Hepburn

Teleperformance

Pro Se

Counsel- Thom K. Cope

10705 Kriserin Circle

Mesch Clark Rothschild

Chester, VA 23831

259 N. Meyer Ave.

(804) 605-2183

Tucson, AZ 85701

tammv.hendrick@yahoo.com

(520)624-8886
tcope@mcrazlaw.com

OFFICE OF THE CLERK

Counsel- Alex Winkelman
Mesch Clark Rothschild
259 N. Meyer Ave.
Tucson, AZ 85701
(520)624-8886
awinkelman@mcrazlaw.com

The questions presented are:
1. Whether spoliation of evidence or failure to preserve evidence is relevant to a case when
the case has been dean for litigation.
2. Whether an employee have the right to verbally be called the N-word in the workplace.
3. Whether foe N-word is severe enough to create a hostile work environment under Title
VII offoe Civil Right Act of 1964 and 42 U.S.C. §2000e.
4. Whether the circumstances of foe use of racial epithets in the workplace are sufficiently
serious enough to create a hostile work environment is protected under Title VII of the
Civil Right Act of 1964 and 42 U.S.C. §2000e.
'i *

5. Whether an employee that show they were treated differently from similar situated
employees are protected under foe Civil Rights Act of 1964 and 42 U.S.C. 2000e.
6. Whether a hostile work environment can create grounds for retaliation.

i

LIST OF PARTIES TO PROCEEDING
Plaintiff, Appellant, Petitioner - Tammy H. Hepburn
Defendant, Appellee, Respondent -Teleperformance
CORPORATE DISCLOSURE STATEMENT
Corporate Disclosure Statement filed by Teleperfoimance: Rule 7.1, Federal Rules of Civil
Procedure, a nongovernmental corporate party to an action in a district court must file a
statement that identifies any parent corporation and any publicly held corporation that owns
10% or more of its stock or states that there is no such corporation. The filing party hereby
declares as follows: No such corporation.

••

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES TO PROCEEDINGS

11

CORPORATE DISCLOSURE STATEMENT

.11

TABLE OF CONTENTS

111-1V

TABLE OF AUTHORITIES

18-19

CITATIONS OF OPINIONS

1

BASIS OF JURISDICTION

1

STATUTORY PROVISION AND STATUES

1-3

STATEMENT OF THE CASE......
1.

Factual background

2.

Procedural background

...3-5
5-9
9-13

REASON FOR GRANTING THE WRIT OF CERTIORARI
CONCLUSION

13-17
17

Appendix A.
Order and Opinion, United States Court ofAppeals for die Ninth Circuit, Tammy H. Hepburn
v. Teleperformance No. 19-17053 (Feb 16,2021)

in

App. A

0\ppendixB
^prdea; Umted States District Coint for the District ofArizona, Tammy H. Hepburn v.
J'eleperfbimance Civil Case No. 4:18-cv-00I51-TUC-BGM. September 30,
2019
App. B
^^ppendix G
^Superior Court ofArizona in Cochise County, Tammy H. Hepburn v. Teleperfbrmance
^ivil Case No. CV201700625, November 9,2017...1................................................. App. C
^ppendixD
^upenor Court ofArizona in Cochise County, Tammy H. Hqibum v. Teleperfbrmance
^pivil Case No. CV2017Q0625, Application For Entry ofDefault................................ App. D

tv

CITATION OF OPINIONS
L

United State District Court for die District ofArizona; Case No. 4:18-cv-00151-TUCBGM.

>

2.

Ninth Circuit Court ofAppeals; Case No. 19-17053
BASIS FOR JURISDICTION

The judgment ofthe Court ofAppeals was entered on Feb 16,2021. A petition for rehearing
was denied on Feb 16,2021. This Court’s jurisdiction rests on 28 U.S.C.§ 1254(1).

STATUTORY PROVISION AND STATUTES
Title VII of The Civil Rights Act of 1964:
Prohibits employment discrimination based on race, color, religion, sex and national origin.
Title VII ofthe Civil Rights Act of 1964 also prohibits discriminatory conduct in the workplace
that is “sufficiently severe or pervasive” to create a hostile work environment.
42 U.S.C. § 2000e-2:
Section 703 ofthe Civil Rights Act of 1964,42 U.S.C. § 2000e-2 provides in part:
(a) Employer practices—It shall be an unlawful employment practice for an employer:
(1) to fail or refuse to hire or to discharge any individual, or otherwise to discriminate against
any individual with respect to his compensation, terns, conditions, or privileges of
employment, because of such individual’s race, color, religion, sex, or nation origin.
1

(2) to limit, segregate, or classify his employees or applicants for employment in any
way which would deprive or tod to deprive any individual of employment opportunities
or otherwise adversely affect his status as an employee, because of such individual’s
. race, color, religion, sex, or national origin.
(k) Burden of Proof in Disparate Impact Cases
(1)

(A) An unlawful employment practice based on disparate impact is established
under this sub-chapter only if— (i)a complaining party demonstrates that a respondent
uses a particular employment practSice that causes a disparate impact on the basis of
race, color, religion, sex, or national origin and the respondent fails to demonstrate that
the challenged practice is job related for die position in question and consistent with
business necessity
(B)

(i) With respect to demonstrating that a particular employment practice causes a
disparate impact as described in subparagraph (AXi), the complaining party shall
demonstrate that each particular challenged employment practice causes a disparate
impact, except that if die complaining party can demonstrate to die court that the
elements of a respondent’s decision making process are not capable of separation for
analysis, the decision making process may be analyzed as one employment practice.

2

(ii)If the respondent demonstrates that a specific employment practice
does not cause the disparate impact, the respondent shall not be required to demonstrate
that such practice is required by business necessity.
(C)The demonstration referred to by subparagraph (AXii) shall be in accordance
with die law as it existed on June 4,1989, with respect to the concept of “alternative
employment practice”.
STATEMENT OF CASE
Title VII ofthe Civil Rights Act of 1964 prohibits discrimination on the basis of race with
respect to terms, conditions, or privileges of employment. 42 U.S.C.§ 2000e-2(aXl). An
employer discriminates in the terms and condition of employment when it subjects its
employees to a racially “intimidating, hostile, or offensive working environment.” Meritor Sav.
Bank, FSB v. Vinson, 477 U.S.57,65(1986). An employee establishes a hostile-work
environment claim by showing that his employer subjected him to discriminatory harassment
that was sufficiently severe or pervasive. Meritor, 477 U.S. at 67. The severe or pervasive
standard requires courts to consider the totality of the circumstances, including the frequency of
the discriminatory conduct; its severity; whether it is physically threatening or humiliating or a
mere offensive utterance; and whether it unreasonably interferes with an employee’s work
performance. Hams v. Forklift Sys., Inc. 510 U.S. 17,23 (1993). This standard is intended to
separate unlawful harassment from ordinary tribulations of the workplace, such as simple
teasing and offhand comments. Faragher v. City of Boca Raton, 524 U.S. 775,788 (1998).
Under it, a “mere offensive utterance” or an “offhand comment” cannot establish a hostile work
3

environment, but an “extremely serious” incident may. In order to build a case and for a case to
be established for review with all evidence possible, it is unlawful to withheld documents,
electronic stored information, emails, texts, ect.... that the information may be relevant to
future litigation. Zubulake IV, 220 FRD 216 (SONY 2003); (SER 100) 10-25. Disparate
treatment is one kind of unlawful discrimination in U.S. labor law. It means unequal behavior
toward someone because of protected characteristic (race or gender) undo* Title YU of the
United States Civil Rights Act A disparate treatment violation is made out when an individual
of a protected group is shown to have been singled out and treated less favorably than others
similarly situated on die basis of an impermissible criterion under Title YD. Under Title VII, a
disparate treatment plaintiff must establish “that the defendant had a discriminatory intent or
motive” for taking a job-related action. Watson v. Fort Worth Bank & Trust, 487 U.S. 977 at
986. If an employment practice which operates to excllude minorities cannot be shown to be
related to job performance, the practice is prohibited. Watson v. Fort Worth Bank & Trust, 487
U.S. 977 at 986; Albemarle Paper Co. v. Moody, 422 U.S. 405,425 (1975). The Civil Rights
Act of 1991 was enacted. The Civil Rights Act of 1991 included a provision codifying the
prohibition on disparate impact discrimination. Under the disparate impact statue, a plaintiff
establishes a prima facie violation by showing that an employer used a particular employment
practice that caused a disparate impact on the basis of race, color, religion, sex, or national
origin. 42 U.S.C. § 2(K)(lXA)(i). An employer may defend against liability by demonstrating
that the practice is “job related for the position in question and consistent with business
4

necessity. 42 U.S.C. § 2(KX 1 )(A)(i). An Adverse Employment Action is a race discrimination
claim means an “ultimate employment decision “such as hiring, granting leave, discharging,
promoting, or compensating ” McCoy v. City of Shreveport, 492 F.3d 551,559 (5th. Cir. 2007).
An acute incident of abuse qualify as an adverse employment action, such as when the incident
“constitutes an intolerable alteration of the plaintiff’s working conditions so as to substantially
interfere with or impair his ability to do his job.” Mathirampuzha v. Poter, 548 F.3d 70,78-79
(2d 2008). Whether an employee opposes an unlawful practice or participates in a proceeding
against the employer’s activity, the employee must hold a reasonable belief that the conduct he
opposed violated Title YD. Long v. Eastfield Coll., 88 F.3d 300,305 (5th. Cir 1996).
1. Factual Background
Tammy H. Hepburn (Hepburn), African-American, filed claims against
Teleperformance which involved racial discrimination, harassment, and retaliation.
Hepburn, contends she was a loyal, dedicated, and conscientious employee of
Teleperfoimance, formally known as Aegis USA, Inc. Hie Defendant acknowledges that
Hepburn job performance was satisfactorily. Pet. App. B (SER 12) b. Hepburn was first
hired as a Temporary Customer Service Representative. Ninth Circuit Record ofAppeal
Appellant Opening Brief (AOB) pg. 1;2.; (AOB) ExhJB; (SER 3) 12-13; (SER 87) 6.
Once peak season ended, Hepburn was retained by Teleperfoimance and became a
permanent Customer Service Representative. Teieperformance has provide no
documents for Hepburn to support this employment change. Hepburn did receive a .50
raise bring her pay to $10.00 per hour. (AOB) pg. 1;3. (SER 368). During peak season
5

hiring, ail employee's are considered temporary, wnen peaK season is over,
Teleperformance decides who they are going to retain. Teleperformance proferrated that
Hepburn was hired as a Customer Service Representation. Pet App. B (SER 3)9-11;
(SER 303) 21-24;(AOB) Exh.B. Hepburn applied for and accepted the position of
Receptionist on May 23,2014. (AOB) pg.l;3. (SER 87) 7; (SER 303) 23-24;(SER 3)
10-11. Due to the feet that Teleperformance was acquiring Aegis USA, Inc. Hepburn’s
HR Manager Marilyn Winiesdorffer, informed Tammy H. Hepburn that she was going to
move her to a back office to assist Human Resources with catching up with backlog of
employee files and she was going to hire someone to replace her as Receptionist. (AOB)
pg. 2;5. (SER87) 8-11. On July 30,2014, Hepburn was moved to a back office within
the Human Resource Office and Margaret McClanahan (McClanahan) non-AfricanAmerican, was hired to replace Hepburn as Receptionist (AOB) pg. 2;6. (SER 87) 8-11;
(SER 432) 2-3. At that time Hepburn and McClanahan both was classified as
Receptionist (SER 304) 17; (SER 4) 18; (AOB) pg. 2;6. (SER 432) 4; (SER 87) 11.
Hepburn was still receiving the pay as a Customer Service Representative. (AOB) pg.
2;7 ; (SER 361) 3-4; (SER 368). Hepburn move to the back office was without any
business contract information as to what her new position was or information informing
her of pay affiliated with foe position. (AOB) pg. 2; 7. (SER) 95;1-11. Hepburn at the
time she was employed with Teleperformance was well qualified to hold a position
within foe Human Resource Department Hepburn has an Associate degree in
Information Systems. Hepburn was hired before Margaret McClanahan.
6

Teleperformance has not provide any information pertaing to this information. During
my deposition I was asked to verify the Resume that I had submitted, that was reviewed
before I was hired, however, it’s not contained in the exhibit of my deposition with the
Teleperformance counsel. Teleperformance believes that Hepburn was moved to the
back office because they experience a seasonal increase of temporary employee hiring in
the Sierra Vista area. (SER 303) 24; (SER304) 1-5; (SER 3) 16-20. Teleperfonnance has
not provided any documentation to support Hepburn being moved or promoted to the
position in the back office. Pet. App. B (SER 3). Teleperformance proferrated Hepburn
moved to the bacck office was pretet to hide poor business practices and discrimination.
On September 3,2014, Hepburn address her concerns to Rhonda Reinartz (Reinartz
non-African-American) about someone sabotaging tire employee files, which Hepburn
was directed to a hall bullentin board by Reinartz to file her complaint with
yourvoice@acgiscorngroup.As the acts continued, on September 10,2014, Hepburn
filed her complaint with yourvoice@aegiscomgroup and Judy Morris, Senior Vice
President (VP) of Human Resources and Niti Prothi, Associated Vice President (AVP).
(AOB) pg. 2-3; 8. (SER 87), pg. 4;11-19; (SER 3) 22-23; (SER 88) 11-2; (AOB) Exh. C
. Teleperformance proferrated that the employee’s files was in that condition due to
excessive hiring is pretextual to hide the harrassment Hepburn endured and to hide
discrimination. Pet. App. B (SER 4) 12-14, (AOB) pg. 2; 8.; pg. 4;13; (SER 88) 11-24.
Soon after Hepburn was moved to the back office she stopped receiving company wide
email that are sent out by co-workers within her location. Usually the emails came from
7

the Recruiting manager Jim Gordon. (SER 305) 15-20; (SER 6) 3; (SER 434) 14; (SER
92) 10-21. On September 15,2014, In a conversation with McClanahan, McClanahan
reference to Hepburn as being the N-word up front. (AOB) pg. 3; 9. Pet. App. B (SER 4)
17-19. Hepburn filed a complaint of McClanahan act with Judy Morris SVP of Human
Resources and Niti Prothi, AVP of Human Resources. (AOB) pg. 3; 9;pg. 4; 11. (SER
87) 19-24; (AOB) Exh. E. Teleperformance proferrated that an investigation was
conducted into Hepburn allegations and Prothi AVP and Reinartz (acting supervisor)
were not able to corroborate Hepburn’s claims. Teleperformance has not provide
Hepburn with essential documentation that an investigation took place. Therefore,
Teleperformance conclusion of the investigation is proferrated to hide unlawful business
practices. (SER 4) 22-26. Teleperformance indicates that McClanahan denied ever
having used such language in reference to Hepburn. (SER 4) 27-28. (SER 5) 2-10.
Teleperformance proferrated McClanahan deniel of telling Hepburn she’s preceived as
the N-word upfront is pretextual to hide discrimination. On September 16,2014,
Reinartz address her concerns with Hepburn about McClanahan use of fee N-word as it
was part of her everyday verbiage and Reinartz indicated to Hepburn feat a N-word is
fee man who sexually molested her son, whom was African-American. Reinartz also
used other racial epithets “Red Neck” and “Honky” when she reference McClanahan use
of the N-word. (AOB) pg. 3;10. (SER 87)24; (SER 88) 1-4. On September 18,2014,
Reinartz showed Hepburn a photograph of a blade and white herder type dog wit a knife
with fee words in quotation. “Mary Had ALittle Lamb”. (SER 433) 12; (SER 88) 5-7.
8

This photo was viewed by Hepburn and McClanahan. (AOB) pg. 4; 12. (SER 88) 6-11.
This was die second time Reinartz had showed Hepburn the same picture after Hepburn
filed a complaint. (AOB) pg. 4; 12,(SER 88) 7-ll.Hepburo was intimidated the first
- time Reinartz showed her the picture, but brushed it off. The second showing of the
picture, Hepburn became threaten and feared for her, dog, daughter, and her family
safety.. This form of harassment and retaliation was detrimental. On November 5,2014,
Hepburn met with Yolanda Bay, HR Manager, to get an update on the status of the
investigation. Bay informed Hepburn that she had to speak with McClanahan and get
with the company lawyers. (AOB) pg. 5;15. From September 2014-December 1,2014,
Hepburn had not been interview or update on the investigation of her allegations. At the
time Hepburn had ended her employment with Teleperformance, Hepburn had know
knowledge of the investigation or the remedial and disciplinary action that had taken
placed. Teleperformance Because ofthe length oftime it was taking Teleperformance to
complete it’s investigation and her working conditions, on December 1,2014, Hepburn
constructively resigned from Teleperformance, and move back to Virginia.
2. Procedural Background
Hepburn all essential personnel are aware ofthe events that has taken place while she
was employed with Teleperformance. The essential personnel consist of Kerry Black,
Director of Human Resources, Judy Morris, Senior VP of Human Resources, Niti Prothi,
Associate VP of Human Resources, and Yolanda Bay, Human Resource Manager. (SER)
89;7-9. (AOB) pg. 3; 9;pg. 4; 11. (SER) 87; 19-24. (AOB) pg. 4;13 (SER) 88; 11-26.
9

Hepburn filed discrimination with the EEOC Phoenix, AZ office. (AOB) pg. 5; 16.
(SER) 89; 2-16. The final charge was presented to Teleperformance in January 2015.
After mediation that took place on March 30,2015, Hepburn did not hear from the
EEOC office (after several attempts to receive case updates) until August, 2017 by
notification with a right to suit letter. Hepburn filed suit in the Arizona Superior Court in
Cochise County on November 8,2017. (SER) 454-460. On January 22,2018, Hepburn
filed an Application for Entry of Default Arizona Superior Court in Cochise County.
(SER) 470-471. See (Pet. App. C ). Teleperformance, the defendant provided notice of
its removal pursuant to 28 U.S.C.§§1332,1441, and 1446 of this case CV2017-00625
pending in the Superior Court, State of Arizona, County of Cochise. (SER) 440-499 to
the United States District Court District ofArizona, pursuant to 28 U.S.C. § 1332(a)(1).
Hepburn claimed, that Teleperformance created a racially hostile work environment in
violation of Title VII. The proceedings continued with Hepburn and Teleperformance
participating in the Court ordered Mandatory Initial Discovery Pilot which consist of
the following process: On April 3,2018 received order that the Honorable Judge Velasco
would conduct proceeding in this case [3]. On April 17,2018, the Plaintiff presented
Teleperformance with Interrogatories requesting information relevant to create her case.
(Doc. 45, Exhibit 5). On April 20,2018 the plaintiff received Notice of Deposition form
the defendant scheduled for May 22,2018. On April 24,2018, Hepburn submitted
Mandatory Initial Discovery Request to the defendant On April 26,2018, Hepburn
received the defendants Initial Disclosure Statement On May 13,2018, Hepburn
10

submitted adjusted Initial Disclosure to the defendant. On May 15,2018, Hepburn
received Defendant’s Responses to interrogatories. On May 22,2018, Hepburn attended
her deposition meeting with the defendant. May 25,2018, Hepburn received order for
scheduling conference from the court. On June 11,2018, Hepburn submitted to the
defendant Supplemental and Additional Initial Disclosure. On June 19,2018, Hepburn
served a Request to Defendant For Production of Documents. Because die defendant fail
to provide Hepburn with discovery information in accordance with the Mandatory Initial
Discovery Pilot, On August 10,2018, Hepburn submitted to the United States District
Court District ofArizona a request For Pre-Motion Conference. On August 29,2018,
Hepburn received die defendant’s Response To Plaintiff Pre-Motion Conference. On
August 30,2018, Hepburn sent a letter to the Honorable Judge Bernard Velasco stating
incidents that were taking place with her and her private property. On September 17,
2018, Order received from the court denying Hepburn’s Motion for Pre-Motion
Conference. On September 12,2018, Hepburn received defendant’s Motion For
Protective Order. On September 17,20 18, Hepburn submitted a Motion For
Reconsideration. On October 3'2018, Hepburn receive order granting Protective Order
based on the defendant releasing relevant case information to Hepburn for case
production and denying Hepburn’s Motion for Reconsideration. The defendant only
released two fictitious affidavits from Human Resource Manager Yolanda Bay and
Payroll’s Rhonda Reinartz. On October 4,2018, Hepburn received order for Judge
Honorable Bruce G. Macdonald to continue the proceeding of this case. On October 22,
11

2018, Hepburn the Plaintiff filed a Motion For entry of Default Judgment [45]. On
November 1,2018, Teleperformance Motion For Summary Judgment On November 8,
2018 Hepburn received the defendant’s Response to Plaintiff’s Motion For Entry of
. Default Judgment.. On November 26,2018, Hepburn received defendant’s response to
Hepburn’s Production of Documents. On December 12,2018, Hepburn submitted her
Opposition to To Defendant’s Motion for Summary Judgment [51]. On December 21,
2018, Hepburn received order for plaintiff to file supplemental to her response to
Defendant’s Motion for Summary Judgment[52].
In the Third and Fourth Circuits, a jury may find that a workplace use of the N-word is
an extremely serious isolated incident that is sufficiently to violate Title VII; in the Fifth,
Sixth, Seventh, Eighth, and Tenth Circuits, a single workplace use of the racial epithet is
a non-actionable mere utterance”. The frequency of the occurrence of the use of the Nword and the other racial epithets used would allow any reasonable jury could find that
Teleperformance conduct was sufficiently hostile. Teleperformance conduct was
sufficiently hostile not only because such epithets were used, but also because they were
expressed in conversations wife Hepburn. Because fins conduct took place within days
of each other, which effected Hepburn’s work environment and work performance any
reasonable jury could find feat these acts were severe and pervasive. The United States
District Court for The District ofArizona granted Teleperformance motion for summary
judgment. Pet App. B. and fee United States Court ofAppeals For fee Ninth Circuit
affirmed fee District Court decision. Pet App. A. Upon discovery feat an error had
12

occurred with Hepburn’s opposition to Teleperformance motion for summary judgment.
Hepburn motion the United States Court ofAppeals for the Ninth Circuit to strike
Hepburn’s supplement to her opposition to Teleperformance motion for summary
judgment and Teleperformance reply/respond, because Hepburn records does not
correspond with the documents submit to the courts by Teleperformance. Hepburn and if
it was submitted by Hepburn or on her behalf it should be stricken from the records.
(Ninth Circuit Docket 25 and 26).
REASONS FOR A WRIT OF CERTIRORARI
Petitioner Tammy H. Hepburn respectfully petitions this court for a Writ of Certiorari to review
the judgment of the United States Court ofAppeals for the Ninth Circuit andfee United States
District Court District ofArizona. In summary, Rule 56(c) procedure for summary judgment
(1) A party asserting that a feet cannot be or is genuinely disputed must support the assertion
by- (A) citing to particular parts of materials in the record, including depositions, documents,
electronically stored information, affidavits or declarations, stipulations (including those made
for purposes of the motion only), admissions, interrogatory answers, or other materials; or (B)
showing that the materials cited do not establish the absence or presence of a genuine dispute,
or that an adverse party cannot produce admissible evidence to support fee feet In review and
research Hepburn discovered that documents feat have been submitted to fee Courts by
Teleperformance does not match and is inconsistent with Hepburn records. After discovering
such, Hepburn motion fee court to strike her Supplement to oppose fee defendant motion for
summary judgment and Teleperformance reply/response to Hepburn’s supplement to oppose
13

the defendant motion to summary judgment In the Judgment from die District Court concludes
the “Based upon die foregoing, die Court finds that die Plaintiff failed to meet her burden in
opposing die Defendant’s motion for summary judgment” It is fundamental to appellate
. practice that the records on appeal be of relevance and appropriate. The Appellant Tammy H.
Hepburn, discovered that her Plaintiff’s Supplement to the Defendant’s Motion for Summary
Judgment that the Defendant Teleperformance hand the Ninth Circuit Court has it is
possession is insufficient defense or a redundant immaterial, impertinent or scandalous matter.
Delta Consulting Grp., Inc. v. R. Randle Constr. Inc., 554 F.3d 1133,1141 (7th. Cir. 2009). The
Court may strike defenses that are ‘insufficient on the face of the pleadings, that fail as a matter
of law, or that are legally insufficient”. Heller Fin., Inc. v. Midway powder Co., 883 F.2d.
1286 (7th. Cir. 1989). The document contained in Hepburn’s files indicates that she submitted to
the Defendant was the Plaintiff’s Supplement to Opposition Motion To Defendant’s Motion For
Summary Judgment and Not the Plaintiff’s Supplement to the Defendant’s Motion For
Summary Judgment (Ninth Circuit Doc. 26). Therefore the construction of such document
constitutes a reversible error. Reversible error warrants reversal of a judgment on appeal.
Reversible error criteria consist of one or more of die appellant’s substantial rights being
affected or die evidence in question be of such character as to have affected the outcome of the
trial. Montana Petroleum Tank Release Compensation Bd. v. Crumley’s, Inc. 174 P.3d. 948
(Mont. 2008). The United States Court ofAppeals for the District of Columbia held that a court
may not grant a summary judgment motion merely because the non-moving party failed to
oppose the motion, even when a local rule provides that the District Court may treat an
14

i

1

unopposed motion as conceded. Hie District Court must analyze whether summary judgment
is warranted under Federal Rule of Civil Procedure (FRCP) 56. FRCP 56e sets out what the
Court may do when the party opposing summary judgment fails to properly address the moving
party’s assertions of feet The rule does not permit the Court to grant the motion as conceded
when the non-moving party foils to oppose the motion for summary judgment. Upon request of
the United States District Court for the District ofArizona or the Defendant, Teleperformance,
the proper motion to be filed is a motion for a more definite statement or statements.
Swierkiewicz v. SoremaN.A., 534 U.S. 506,514,122 S.Ct 992,152 L.Ed. 1 (2002); Sisk v.
Texas Parks and Wildlife Dept, 644 F.2d 1056,1059 (5th. Cir.1981). Although motions to strike
are sometimes disfavored, they should be granted when: 1) the allegations have no possible
relation to the controversy and 2) the allegations may cause prejudice to one of the parties
Augustus v. Board of Public Instruction, 306 F.2d 862,868 (5th. Cir. 1962).Ninth Circuit
Docket 26. All cases should be view as a whole to include all evidence to claims presented.
This case stems from a case with the EEOC Phoenix Office. The Defendant was very aware
that the case was in litigation and foiled to preserve evidence to the related litigation. (SER
100) 10-15. In December 2017, fee Supreme Court of Virginia decided a case of first
impression as to whether spoliation of evidence requires an element of “bad faith”. Spoliation
refers to fee destruction of evidence or fee failure to preserve evidence feat is protected by
FRCP 37. Spoliation occurs when a party is aware: (1) feat there is either pending litigation or
probable future litigation, (2) feat fee pending or probable litigation involves evidence in that
party’s custody or under its control, and (3) feat if that evidence is destroyed or not preserved,
15

l

it will interfere with the other party’s ability to prove it claims. A general axiom that
exemplifies most common law standards is die duty to preserve electronically stored
information or any potentially relevant evidence, attaches when a party reasonably foresees that
the information may be relevant to future litigation. Zubulake IV, 220 FRD 216 (SDNY 2003).
(SER100) 15-26. Therefore, Writ of Certirorari should be granted for review of the Petitioner
complete case. The Ninth Circuit make known that Tammy H. Hepburn appeals, pro se, from

i

the district court’s summary judgment in her Tide VII employment action alleging race
discrimination, hostile work environment, and retaliation claims. The Ninth Circuit affirmed
the district court decision. In the Third and Fourth Circuits, a jury can find on use of a slur
severe enough to establish a hostile work environment. The D.C.Circuit has suggested
agreement with the view that one workplace use of die N-word, a work that “instantly calls to
mind our country’s long and brutal struggle to overcome racism and discrimination against
African-Americans”, may alone establish a hostile-work environment claim. Ayissi-Etoh v.
Fannie Mae, 712 F.3d 572,580 (D.C. Cir. 2013). In die Fifth, Sixth, Seventh, Eight, and Tenth
Circuits, the workplace use of a racial epithet by itself is invariably insufficient to place a
hostile work environment claim before a jury. What ever the circumstance are in the work
place, the use of the N-word (and other similar abhorrent racial epithets) violates Title VII. This
is a recurring issue that can be resolved only by this Court The N-word is used in the work
place to demean African-American anployees. Tide VH makes it unlawful for an employer to
discriminate against an employee with respect to his compensation, terms, conditions, or
privileges of employment on the basis of various characteristics, including race. 42 U.S.C. §
16

(J

2000 e-2(a)(l). The N-word alone is “perhaps the most offensive and inflammatory racial slur in
English.” Swinton v. Potomac Corp., 270 F3d 794,817 (9*. Cir. 2001). In Hepburn’s case, the
use of the N-work and the other racial epithets was severe and pervasive that changed
Hepburn’s prospective of tire organization and working environment. Therefore Hepburn’s case
should be reviewed and a reversal including relief should be granted.
CONCLUSION
When a case evidences is mainly based on what the plaintiff have submitted, tins case should
be look at in it’s entirety. No case should be one-sided, whereas one side is not held responsible
for not providing evidence that is relevant to a case. Even though, (I) Hepburn did not receive
supporting documentation from the Respondent (Teleperformance), (I) Hepburn has provided
my burdeen of proof in suffering racial discrimination, a hostile work environment, and
retaliation at the hands of Teleperformance.
Therefore, this Court should grant my petition for Writ of Certiorari.

Date: May 13,2021
Signature:

4J,
Tammy

17

o
Hepburn

TABLE OF AUTHORITIES
Meritor Sav. Bank, FSB v. Vinson, 477 U.S. 57,65 (1986)

.3

Meritor, 477 U.S. at 67

3

Harris v. Forklift Sys., Inc. 510 U.S. 17,23 (1993)

3

Faragher v. City of Boca Raton, 524 U.S. 775, 788 (1998)

3

Zubulake IV, 220 FRD 216(SDNY 2003)

4,16

Watson v. Fort Worth Bank & Trust, 487 U.S. 977 at 986

4

Albemarle Paper Co. v. Moody, 422 U.S. 405,425 (1975)

.4

McCoy v. City of Shreveport, 492 F.3d 551, 559 (5th. Cir. 2007)

5

Mathirampuzha v. Porter, 548 F.3d 70,78-79 (2d 2008).....

5

Long v. Eastfield Coll., 88 F.3d 300, 305 (5th. Cir. 1996)

.5

Delta Consulting Grp., Inc. v. R. Randle Constr. Inc., 554 F.3d 1133,1141
(7*.Cir. 2009)

14

Heller Fin., Inc. v. Midway Powder Co., 883 F.2d 1286 (7th. Cir. 1989)

.14

Montana Petroleum Tank Release Compensation Bd. v. Crumley’s, Inc. 174
P.3d 948 (Mont 2008)

14

Swierkiewicz v. SoremaNA., 534 U.S. 506, 514,122 S.Ct 992,152 L.Ed 1(2002)

15

18

Sisk v. Texas Paries and Wildlife Dept., 644 F.2d 1056, 1059 (5th. Cir. 1981)

15

Augustus v. Board of Public Instruction, 306 F.2d 862,868 (5*. Cir. 1962).

15

Ayissi-Etoh v. Fannie Mae, 712 F.3d 572, 580 (D.C. Cir. 2013)

16

STATUES
28 U.S.C. § 1254(1)

1

42 U.S.C. § 2000e-2

1

42 U.S.C. § 2000e-2(a)(l)

3,17

42 U.S.C. § 2000e-2(K)( 1 )(A)(i)

.4,5

28 U.S.C. § § 1332,1441, and 1446

10

28 U.S.C. § 1332(A)(1)

10

i

19

